NO.
THE SUPREME COURT
OF THE UNITED STATES

ZACHARY B. TAYLOR,
Petitioner,
V.

STATE OF GEORGIA,
Respondent.

Zachary B. Taylor's Application to Justice Clarence Thomas to
Extend Time to File Petition for Writ of Certiorari to
Review Judgment of the Supreme Court of Georgia

ZACHARY BOUVIER TAYLOR
Augusta State Medical Prison
3001 Gordon Highway
Grovetown, Ga. 30813
(706) 855-4781
Pro Se Petitioner

OCT 122018
1

Pursuant to Supreme Court Rules 22 and 30, the undersigned petitioner, Zachary B.
Taylor (hereinafter, "Mr. Taylor"), an inmate at the Augusta State Medical Prison, applying
pro Se, requests a sixty (60) day extension of time to file a Petition for Writ of Certiorari seeking
review of the decision of the May 7, 2018 decision of the Supreme Court of Georgia. The case
was styled as Zaclzaiy B. Taylor v. State of Georgia, Docket No. Si 8A0276 in the lower court
and a copy of the decision is attached to this application.
Background
Mr. Taylor was convicted at trial of Murder, Aggravated Assault and Aggravated
battery on February 24, 2015. He was sentenced tolife in prison. He filed a timely appeal of
his conviction to the Georgia Supreme Court, which affirmed the conviction on May 7, 2018.
This is the decision Mr. Taylor seeks to review by way of a petition for writ of certiorari to this
Court. A copy of the decision is enclosed.
Procedural Background
The time for Mr. Taylor, the undersigned petitioner, to file his petition for a writ of
certiorari, excluding holidays, was on or about August 7, 2018. On July 26, 2018, Mr. Taylor,
through counsel, applied for an extension of time to file his petition. The application was
returned because it did not include a declaration of mailing, and the accompanying cover letter
of the Clerk further noted that this application, if filed in a representative capacity, must be
made by an attorney admitted to the Bar of this Court. (See Declaration of Leon Jacobson and
returned application for an extension of time to file writ of certiorari, attached hereto as
"Exhibit A".)

Mr. Taylor now submits the present application, pro Se, because being

incarcerated, he needed additional time to acquire counsel meeting the admission criteria,
which he is currently in the process of retaining. This application is timely made pursuant to
Rule 30(1), as Mr. Taylor's initial application was timely filed by counsel on July 26, 2018,
(see Affirmation of Leon Jacobson, Esq., attached hereto as "Exhibit B") and requests an

2

extension up to and including Monday, October 8, 2018, or the latest eligible extension date as
determined by the Court.
Mr. Taylor respectfully asks Justice Thomas, as Circuit Justice for the Eleventh Circuit,
to extend the time for him to file a petition for writ of certiorari. Mr. Taylor requests that the
deadline be extended by sixty (60) days, so that the new deadline, excluding weekends and
holidays, would be Monday, October 8, 2018.
Mr. Taylor's request satisfies the express procedural requirements of Supreme Court
Rule 14.5(g)(i). This Court would have subject matter jurisdiction to hear Mr. Taylor's petition
because he asserts claims under the Sixth and Fourteenth Amendments to the U.S. Constitution,
and Batson v. Kentucky, 476 U.S. 79(1986).

The judgment that Mr. Taylor seeks to review is the Georgia Supreme Court's May 7,
2018 decision affirming his judgment and conviction for Murder, Aggravated Assault and
Aggravated battery. He was sentenced to life in prison. A copy of the decision is enclosed.
(See Exhibit A.)
Mr. Taylor's present application is timely made because his initial application for
extension was filed more than ten days before the deadline of his petition and is sought for
good cause.
Good Cause
Undersigned petitioner recognizes that extensions of time to file a petition for writ of
certiorari are not favoured, and that a request for an extension requires good cause. Good cause
exists to grant this request for any of following three reasons.
First, Mr. Taylor is incarcerated in a state prison and requires more time and special
assistance in making applications and petitions of this nature, and in acquiring qualified
counsel, than a petitioner who is not incarcerated, and/or represented by counsel.

3

Second, extraordinary circumstances are present in this case in that Mr. Taylor was
recently transferred to Augusta State Medical Prison ("ASMP"), a Georgia facility that
"provide[s] centralized acute, specialized medical and Level IV Mental Health services for
male and female offenders primarily as transient, [and] house[s] severe medical cases." (See
ASMP website.') The process of Mr. Taylor's transfer to ASMP—as well as the circumstances
surrounding his admission there—have aggravated the difficulties of petitioning this Court
even further, making it even more difficult for Mr. Taylor than for an ordinary inmate not
presented with such circumstances.
Third, Mr. Taylor certifies that, based upon his review and the advice of his previous
counsel, his petition will raise important constitution questions that this Court should address
arising from the lower court's erroneous application of Batson.
Undersigned petitioner certifies that his decision to ask for an extension of time is not
for purposes of delay, but to permit petitioner adequate time to retain a duly qualified Supreme
Court practitioner, and prepare and finalize the petition. There is no prejudice to the State from
granting of this request.
Accordingly, for all the foregoing reasons as summarized above, Mr. Taylor
respectfully asks Justice Thomas to extend the time for him to file a petition for writ of
certiorari up to and including Monday, October 8, 2018.

This application is submitted on

,

2018.
Respectfully submitted,

.•••

NOTARY:

AA
Golo.H2

\

j ca

AU

' http://www

state.ga.

_50000190.htrnl

4

CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing was mailed this

day of

-5ep1eL'r

2018 via first-class mail postage prepaid addressed as follows:

Ann: JEFF ATKINS
Clerk of the Court
SUPREME COURT OF THE UNITED STATES
I First Street, NE
Washington, DC 20543
Assistant Attorney General
Georgia Departm ent of Law
40 Capital Square, SW
Atlanta, GA 30303

m jPMyrnWIIW7_1 910
roema)~~'tvl~~'

THE SUPREME COURT
OF THE UNITED STATES
ZACHARY B. TAYLOR,
Petitioner,
V;
STATE OF GEORGIA,
Respondent.

DECLARATION OF LEON JACOBSON
Leon Jacobson declares under the penalty of perjury that the foregoing is true and
correct:
I filed the attached Application to Extend Time to File Petition for a Writ of Certiorari
in the above-captioned matter,by first class mail, affixing first-class postage

prepaid, and

depositing the same into a depository bearing the emblem of the United States Post Service on
July26, 2018, addressed as follows:
Clerk of the Court
United States Supreme Court
Supreme Court of the United States
I First Street, NE
Washington, DC 20543
Ms. Lalaina Briones
104 Marrietta Street NW, Suite 400
Atlanta, GA 30303-2743

State of New York. County of Kings.
Subscribed and sworn to before me on this
Day of

Executed on this

201b

S'o

In the year

day of September, 2018.

k.

L_4
eo *son

j7

LUSB
/
OCW York
NOtOV Pubic StJO

1
:c. 01BA862 1 3
I
Quci1 n NC\
4 My

I

1

kit

-26160

